Report No. D-2008-130         September 17, 2008




   Approval Process, Tracking, and Financial
   Management of DoD Disaster Relief Efforts
Additional Information and Copies
29




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
30B




To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
31B




ASD(HD&ASA)           Assistant Secretary of Defense for Homeland Defense and Americas’
                         Security Affairs
DCE                   Defense Coordinating Element
DCO                   Defense Coordinating Officer
DDASS                 DoD Defense Support of Civil Authorities Automated Support System
DSCA                  Defense Support of Civil Authorities
FEMA                  Federal Emergency Management Agency
FMAT                  Financial Management Augmentation Team
IG                    Inspector General
JCS                   Joint Chiefs of Staff
USNORTHCOM            U.S. Northern Command
                                      INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                              September 17,2008

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Approval Process, Tracking, and Financial Management of DoD Disaster Relief
         Efforts (Report No. D-2008-130)


We are providing this report for review and comment. We considered comments from the
Chairman, Joint Chiefs of Staff; the Under Secretary of Defense (Comptroller)/ChiefFinancial
Officer; COlmnander, U.S, NOlthern Command; and the Assistant Secretary of Defense for
Homeland Defense and Americas' Security Affairs when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Based on
comments received from the Assistant Secretary of Defense for Homeland Defense and Americas'
Security Affairs, we redirected two recommendations. As a result, we request additional
comments from the Under Secretary of Defense (Comptroller)/Chief Financial Officer on
Recommendation A.2, and the Commander, U,S, Northern Command on Recommendation A.3.c,
We request additional comments by November 14,2008.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send management comments in electronic format (Adobe Acrobat file only) to
AudACM@dodig.mil. Copies of the management comments must have the actual signature of the
authorizing official for your organization, We cannot accept the / Signed / symbol in place of the
actual signature, If you arrange to send classified comments electronically, you must send them
over the SECRET Intemet Protocol Router Network (SIPRNET).

We appreciate the coUttesies extended to the staff, Please direct questions to Ms. Deborah Culp at
(703) 604-9335 (DSN 664-9335) or Ms, Dianna J. Pearson at (703) 604-9063 (DSN 664-9063).
Team members are listed on the inside back cover,




                                            Richard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
COMMANDER, U.S. NORTHERN COMMAND
ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND
   AMERICAS’ SECURITY AFFAIRS
DIRECTOR, JOINT STAFF
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
  COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
COMMANDER AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                   Report No. D-2008-130 (Project No. D2007-D000CG-0117.000)
                                       September 17, 2008

              Results in Brief: Approval Process, Tracking,
              and Financial Management of DoD Disaster
              Relief Efforts
What We Did
0B
                                                            •   Examine the staffing of the Defense
                                                                Coordinating Officer positions and
Our objective was to determine whether the
                                                                develop a plan to jointly staff positions.
mission assignment process worked within DoD
during the Gulf Coast relief efforts.                       •   Fully develop the automated system
Specifically, we evaluated the process for                      used for tracking mission assignments
receiving mission assignments, delegating                       during disaster response.
mission assignments to the appropriate DoD                  •   Update and issue DoD Directives for
Components, and subsequently reconciling                        Defense Support of Civil Authorities
mission assignments. After announcing the                       operations.
audit, we removed the U.S. Army Corps of                    •   Examine policies and procedures in
Engineers and the overall reconciliation process                place for determining appropriateness of
from the audit scope. However, we reviewed                      DoD executing mission assignments.
limited aspects of the reconciliation process               •   Increase coordination with and oversight
when we addressed concerns identified by DoD                    of the Financial Management
personnel, which we discuss briefly in this                     Augmentation Team.
report. We examined the mission assignment                  •   Coordinate agreements with the Federal
process used during Hurricane Katrina and                       Emergency Management Agency
developments since then.                                        regarding reimbursement for DoD
                                                                equipment and pre-positioning of forces.
What We Found
1B




DoD provided disaster relief through
                                                       Client Comments and Our
                                                       3B




121 Federal Emergency Management Agency                Response
mission assignments totaling more than                 The Chairman, Joint Chiefs of Staff, the Under
$2 billion. DoD has taken several steps to             Secretary of Defense (Comptroller)/Chief
improve the overall mission assignment process.        Financial Officer, and the Commander, U.S.
Despite notable improvements, DoD continues            Northern Command concurred with our
to have issues that could affect readiness and         recommendations. The Assistant Secretary of
situational awareness during disaster relief           Defense for Homeland Defense and Americas’
efforts. DoD did not have guidance in place            Security Affairs commented and did not concur
during Hurricane Katrina to effectively manage         with two recommendations, but later agreed that
financial operations. DoD can take steps on its        the recommendations should be directed to other
own and through coordination with the Federal          DoD Components. Consequently, we have
Emergency Management Agency to further                 redirected the two recommendations. Please see
improve the mission assignment process and             the recommendations table on the back of this
disaster relief efforts.                               page.

What We Recommend
2B




DoD should do the following to improve its
response to disaster relief.


                                                   i
                Report No. D-2008-130 (Project No. D2007-D000CG-0117.000)
                                    September 17, 2008

Recommendations Table
4B




Client                            Recommendations               No Additional Comments
                                  Requiring Comment             Required
Chairman, Joint Chiefs of Staff                                 A.1., B.1.
Under Secretary of Defense        A.2.                          B.2.
(Comptroller)/Chief Financial
Officer
Commander, U.S. Northern          A.3.c.                        A.3.a., A.3.b., B.3.
Command
Assistant Secretary of Defense                                  A.4., B.4.
for Homeland Defense and
Americas’ Security Affairs

Recommendations A.2. and A.3.c. were redirected between the issuance of the draft and final
reports. The clients have not previously received the opportunity to comment on these
recommendations.

Please provide comments by November 14, 2008.




                                              ii
Table of Contents

Results in Brief                                                                   i

Introduction                                                                       1

       Objectives                                                                  1
       Background                                                                  1

Finding A. Coordination Issues Identified During or Since Hurricane Katrina
 Continue                                                                          7

       Recommendations                                                            17

Finding B. Financial Management for Hurricane Katrina Mission Assignments         20

       Recommendations                                                            27

Issues Outside DoD Control                                                        30

Appendices

       A. Scope and Methodology                                                   33
              Review of Internal Controls                                         34
       B. Prior Coverage                                                          35
       C. Emergency Support Functions                                             37
       D. Disaster Response Framework                                             39
       E. Defense Support of Civil Authorities Approval and Performance Process   41

Client Comments

       Joint Chiefs of Staff                                                      43
       Under Secretary of Defense (Comptroller)/Chief Financial Officer           45
       U.S. Northern Command                                                      47
       Assistant Secretary of Defense for Homeland Defense and Americas’          51
              Security Affairs
Introduction
Objectives
5B




Our objective was to determine whether the mission assignment process worked within
DoD during the Gulf Coast relief efforts. Specifically, we evaluated the process for
receiving mission assignments, delegating mission assignments to the appropriate DoD
Components, and subsequently reconciling mission assignments. After announcing the
audit, we removed the U.S. Army Corps of Engineers and the overall reconciliation
process from the audit scope. However, we reviewed limited aspects of the reconciliation
process when we addressed concerns identified by DoD personnel, which we discuss
briefly in this report. We examined the mission assignment process used during
Hurricane Katrina and developments since then. See Appendix A for the scope and
methodology and review of internal controls. See Appendix B for prior coverage related
to the objectives.

Background
6B




Congress tasked the Department of Homeland Security Inspector General, as the lead
agency of the President’s Council on Integrity and Efficiency Homeland Security
Roundtable for hurricane recovery oversight, with assessing the performance of the
Federal Government during Hurricane Katrina. We performed this audit to supplement
that assessment. We initiated the audit based on concerns from the Department of
Homeland Security Inspector General and Congress because no prior audits addressed the
overall process for approving, performing, and accounting for the DoD assistance
provided during Hurricane Katrina.

Disaster Response Framework
        Several documents outline the means by which the Federal Government can
become involved in disaster relief operations. Documents in effect during Hurricane
Katrina included section 1535, title 31, United States Code, “The Economy Act”; Public
Law 106-390, “The Robert T. Stafford Disaster Relief and Emergency Assistance Act
(the Stafford Act)”; and the 2004 National Response Plan were in effect during Hurricane
Katrina. The Catastrophic Incident Supplement to the 2004 National Response Plan
became effective following Hurricane Katrina. Congress and Government agencies have
also revised publications in existence during Hurricane Katrina. The following
publications provide guidance on how the Federal Government can respond to a disaster.

The Economy Act
                The Economy Act authorizes one agency to request goods or services
from another agency with payment made to the agency filling the request. The agency
filling the request determines when the payment for goods or services will be made by
the requesting agency, in advance or on delivery of the requested goods or services. The
Economy Act specifies that the requesting agency obligates money to the agency filling
the request when an order or agreement is placed. The agency filling the request does not
incur its own obligations as a result of the request. The Economy Act serves as the


                                            1
authority for funding transactions between Federal agencies unless there is more specific
authority for such transactions. Another Federal agency can request DoD support under
the Economy Act until a Presidential disaster declaration is made, at which point the
Stafford Act becomes effective.

The Stafford Act
                The Stafford Act, as amended by Public Law 106-390, October 30, 2000,
provides an orderly and continuing means of assistance by the Federal Government to
State and local governments to help alleviate the suffering and damage that results from
disasters. The Stafford Act provides a system of emergency preparedness to protect life
and property in the United States from hazards and to apportion responsibility for
assistance in a disaster among the Federal Government, States, and their political
subdivisions. The President may direct any Federal agency to use its authorities and
resources in support of State and local assistance efforts. Any Federal agency assisting
the Federal Emergency Management Agency (FEMA) may seek reimbursement from
FEMA for eligible costs incurred for the assistance provided.

The 2004 National Response Plan
                The Stafford Act serves as the foundation for the 2004 National Response
Plan, which establishes a comprehensive, national, all-hazards approach to domestic
incident management. The 2004 National Response Plan provides the framework for the
flow of disaster support from the local level, through the State, FEMA, and primary
Federal agencies, to DoD. The 2004 National Response Plan includes 15 emergency
support functions, each serving as a coordination mechanism for providing Federal
assistance to local and State authorities. For DoD, the U.S. Army Corps of Engineers
serves as the primary agency for emergency support function 3 (Public Works and
Engineering). DoD serves as a supporting agency to all 15 emergency support functions.
See Appendix C for more information on the emergency support functions. The
Department of Homeland Security continues to update the 2004 National Response Plan
as necessary, such as the Notice of Changes to the 2004 National Response Plan on
May 25, 2006. Also, in March 2008, the Department of Homeland Security issued the
National Response Framework to build on and supersede corresponding sections in the
2004 National Response Plan.

Catastrophic Incident Supplement
                The Department of Homeland Security issued the Catastrophic Incident
Supplement to the 2004 National Response Plan (the Supplement) following Hurricane
Katrina. The Supplement establishes a coordinated strategy for accelerating the delivery
and application of Federal and federally accessible resources in support of a jurisdictional
response to a catastrophic mass victim or mass evacuation event. The Supplement
assumes that a catastrophic mass victim or mass evacuation event will trigger a
Presidential disaster declaration. This assumption allows the Secretary of the Department
of Homeland Security to direct the implementation of the Supplement and pre-position
Federal resources. Federal agencies can pre-deploy tailored packages identified within
the Supplement to meet the anticipated State and local requirements of the incident.



                                             2
Defense Support of Civil Authorities
        DoD provides disaster relief through the Defense Support of Civil Authorities
(DSCA) operations. Except in limited situations where DoD is required to act
immediately, DoD is a fifth-level responder after local, State, FEMA, and primary
Federal agencies based on the structure of the 2004 National Response Plan. See
Appendix D for an overview of the disaster response framework outlining how DoD
provides support using the normal mission assignment process. DoD has authority to
provide assistance on a limited basis if local or State authorities request assistance
directly from installation commanders. In such cases, DoD acts as a multilevel responder
that provides assistance as soon as local or State authorities determine that a DoD
response is required. DoD defines DSCA as support provided by Federal military forces,
DoD civilian and contract personnel, and DoD agency and Component assets. DoD
provides DSCA when directed to do so by the President or on approval by the Secretary
of Defense. DoD provides DSCA in response to requests to prepare for, prevent, protect
during, respond to, and recover from domestic incidents including terrorist attacks, major
disasters, and domestic special events such as political conventions. See Appendix E for
more information on the DSCA approval and performance process.

DoD Policy for DSCA
       DoD policy for DSCA operations exists in many forms, including DoD Directives
and Manuals, Joint Staff Instructions and Manuals, Joint Publications, concept of
operation plans, and Service-level guidance. The Services involved with DSCA
operations generally derive their disaster support guidance from the DoD Directives. The
following policies govern the most significant aspects of DSCA operations.

               •   DoD Directive 3025.1, “Military Support to Civil Authorities,”
                   January 15, 1993, defines disaster response and outlines the
                   responsibilities of the Joint Chiefs of Staff (JCS), Unified Commands,
                   and other DoD Components and Services that respond to a civil
                   emergency. Additionally, it defines the use of Immediate Response
                   Authority as an exception to gaining prior approval when immediate
                   action is necessary to save lives, prevent human suffering, or mitigate
                   property damage. DoD should provide Immediate Response Authority
                   only until civil responsibility is established.

               •   DoD Directive 3025.15, “Military Assistance to Civil Authorities,”
                   February 18, 1997, identifies cost, appropriateness, readiness, risk,
                   legality, and lethality (CARRLL analysis) as areas that DoD should
                   evaluate when it receives a request for disaster relief assistance.

               •   Joint Staff Instruction 3630.01, “Expedited Orders Process for
                   DSCA,” February 7, 2005, provides guidance to JCS for the process to
                   review, approve, and release orders authorizing DSCA. JCS considers
                   the areas identified in DoD Directive 3025.15 in its review and can
                   decline the request if accepting the request would significantly affect
                   the DoD warfighting mission. After performing its responsibilities,
                   JCS forwards the request to the Assistant Secretary of Defense for
                   Homeland Defense and Americas’ Security Affairs (ASD[HD&ASA])



                                             3
                  for coordination and approval. The JCS replaced Joint Staff
                  Instruction 3630.01 with Joint Staff Instruction 3630.01A on
                  June 1, 2006.

U.S. Northern Command
       The Secretary of Defense and the Chairman of the JCS announced a change to the
Unified Command Plan in 2002 and created the U.S. Northern Command
(USNORTHCOM) as a new combatant command. Established on October 1, 2002,
USNORTHCOM provides command and control of homeland defense efforts and
coordinates DSCA operations. Specifically, USNORTHCOM provides DSCA, including
consequence management operations, when directed to do so by the Secretary of
Defense. Army North, Air Force North, and Navy North (through Fleet Forces
Command) serve as Service Components to USNORTHCOM.

Mission Assignments
        FEMA issues mission assignments to Federal agencies requesting that the
agencies complete certain tasks. DoD refers to mission assignments as “requests for
assistance” until the Secretary of Defense approves them. The mission assignments often
contain information on the funding and other managerial controls. FEMA issues mission
assignments in anticipation of or in response to a Presidential declaration of a major
disaster. Blanket mission assignments have broad missions that multiple units across
more than one Service can perform. Specific mission assignments have specific tasks,
and DoD typically assigns them to one performing unit. Both blanket and specific
mission assignments should contain funding obligation limitations for the assistance
requested. Blanket mission assignments require additional financial management within
DoD because they are performed by multiple Services.

        FEMA issued both blanket and specific mission assignments to DoD during
Hurricane Katrina. Overall, FEMA issued 121 mission assignments to DoD for
Hurricane Katrina. According to USNORTHCOM mission assignment data, FEMA
issued DoD more than $2 billion in mission assignments and amendments for Hurricane
Katrina. FEMA requested DoD primarily to provide supplies and equipment to the
affected areas, conduct search and rescue, and provide transportation. FEMA also issued
mission assignment amendments during Hurricane Katrina to revise the scope and
funding for the project, extend the project completion date, or cancel the mission
assignment.

National Guard Force Status
        Although generally considered part of the State disaster response efforts, the
National Guard can become a federally funded and controlled asset under certain
circumstances. Under State control, the National Guard performs disaster relief and State
missions, and can perform law enforcement functions. The National Guard is under the
command of the Governor. Federal law also allows for the National Guard to be
federally funded while remaining in State control. The President has the authority to
make the National Guard a Federal asset directed by the Secretary of Defense when
needed. When under Federal control, the National Guard cannot perform law



                                            4
enforcement functions. According to JCS, during Hurricane Katrina, the National Guard
was federally funded while under State control with the exception of a few National
Guard officers, who were called into Federal service to coordinate efforts with DoD
officers.

2007 Southern California Wildland Fires Audit
        The Joint Chiefs of Staff requested that we perform an audit similar to the work
performed during this project that reviews concerns they identified during the 2007
Southern California wildland fires relief effort. On July 8, 2008, we announced Project
Number D2008-D000CG-0246.000, “Audit of the Mission Assignment Process During
the 2007 Wildland Fires in Southern California.” The objective of the audit will be to
review DoD response activities in regard to authorities, validation of requests, and
financial management of support rendered. Where applicable, we will expand the scope
of the audit to include more recent wildfires.




                                            5
6
Finding A. Coordination Issues Identified
During or Since Hurricane Katrina Continue
DoD has made a number of improvements to the overall process for approving and
completing FEMA mission assignments since Hurricane Katrina. DoD has authorized
additional personnel and resources to coordinate and perform disaster relief efforts. The
additional personnel and resources should alleviate many problems identified during the
Hurricane Katrina relief efforts. Despite the notable improvements, DoD continues to
have issues that could affect readiness and situational awareness during disaster relief
efforts. DoD continues to have coordination issues for the following reasons.

                   •   DoD policy for assessing the appropriateness of a mission assignment
                       needs clarification.

                   •   USNORTHCOM has not staffed the 10 Defense Coordinating
                       Officer (DCO) positions with personnel from all Services.

                   •   DoD is still developing a tool for tracking mission assignment
                       approval and status. DoD has taken the initiative to develop this tool
                       because DoD did not have an efficient method to track mission
                       assignments during Hurricane Katrina. A second tool that was
                       available prior to Hurricane Katrina to assist in cost estimation has not
                       been kept up-to-date.

                   •   Training and operational exercises that DoD conducts for disaster
                       relief personnel may not have full participation and do not address the
                       needs and concerns of all DoD Components.

                   •   DoD personnel are not always aware of FEMA processes for obtaining
                       equipment that responders used during disaster relief efforts or the
                       procedures for obtaining reimbursement for purchased equipment.

     As a result, DoD may be unnecessarily involved in future disaster responses that could be
     completed by other more appropriate responders. Additionally, DoD responses to future
     disasters may not be as effective and efficient as possible and could be more costly than
     necessary.

Improvements Since Hurricane Katrina
8B




DoD has made a number of improvements since Hurricane Katrina. DCOs have greater
resources to perform their duties, DoD has established designated resources that can
quickly be used for disaster relief missions, DoD has improved personnel accountability,
and training is available for disaster response personnel. We determined that
improvements in DCO roles, advance disaster coordination, and training courses have
been implemented effectively. DoD should continue to implement these improvements
because they strengthen coordination, communication, and knowledge of disaster relief
responders.




                                                 7
DCOs Collocated at Each FEMA Region
        DoD has permanently assigned 10 full-time DCOs, one collocated at each FEMA
region, as a result of lessons learned from Hurricane Katrina. Many representatives
throughout DoD have regarded this improvement to DSCA operations as the most
significant change following Hurricane Katrina. Among other responsibilities, the DCO
and the assigned Defense Coordinating Element (DCE) plan, coordinate, and integrate
DSCA with local, State, and Federal agencies on a regular basis. The working
relationship between the DCO and FEMA representatives allows them to respond to
disasters in an improved and more efficient manner. The DCO and the DCE also
maintain a high state of readiness by ensuring all personnel are trained and prepared to
deploy in response to DSCA operations.

19B   Mobile Communication Capability
        Army North has obtained two types of vehicles with equipment that will allow
disaster responders in the field to connect with the DCO and other DoD officials. Army
North has emergency response vehicles that are equipped with standard “fly-away
packages” that can provide both secure and nonsecure communications. Army North
also developed a larger command and control vehicle, the Sentinel, which can be used as
a mobile operational command post. The Sentinel supports an operational command post
by providing multiple secure and nonsecure communications capabilities, secure and
nonsecure video teleconferencing, force tracking, and interoperability with various radio
networks for communication with first responders, thus providing valuable information
needed during disaster relief.

The Use of Pre-Scripted Mission Assignments
20B




        FEMA and DoD coordinated a number of Pre-Scripted Mission Assignments that
can lead to a more efficient disaster response and eliminate the likelihood of delays in the
approval process. Pre-Scripted Mission Assignments contain a mission statement and
dollar amount that serve as a general template to begin the process. Although language in
Pre-Scripted Mission Assignments is coordinated in advance, they still require Secretary
of Defense approval before forces are deployed. As of our review, DoD and FEMA had
developed 26 Pre-Scripted Mission Assignments following Hurricane Katrina, for
resources such as the DCO and DCE, mobilization centers, temporary medical facilities,
and rotary-wing aircraft. Additional Pre-Scripted Mission Assignments can be generated
if FEMA and DoD identify the need for them in the future.

Standing Severe Weather Execute Orders
21B




        In addition to the pre-scripted mission assignments, JCS developed the DSCA
Standing Severe Weather Execute Order to lead to an improved disaster response. JCS
originally issued a DSCA Standing Severe Weather Execute Order to cover the routine
provision of DSCA to the primary Federal agency for that function and other civil
authorities on April 28, 2006. The JCS updated the execute order in 2007 to include a
three-tiered approach in deploying DoD assets for DSCA operations. The tiered set of
authority includes the following.




                                             8
            •   Tier One: The supported combatant commanders * are authorized to place
                                                                        F   F




                assigned forces on prepare-to-deploy status, deploy the forces upon
                notification of the Chairman of JCS and the Secretary of Defense, and
                employ the forces upon receipt of a validated and approved request for
                assistance.

            •   Tier Two: The supported combatant commanders can coordinate directly
                with force providers to place forces on 24-hour prepare-to-deploy order
                status upon notification of JCS and the Secretary of Defense. These forces
                may be required to maintain prepare-to-deploy order status for up to
                7 consecutive days, unless otherwise approved by the Secretary of
                Defense. Once the supported combatant commander validates and
                approves the request for assistance, the commander may then employ Tier
                Two forces.

            •   Tier Three: Forces identified as Tier Three forces constitute response
                capabilities to be used in large-scale incidents, such as a predicted landfall
                of a major hurricane. When the supported combatant commander
                anticipates the relief effort will exceed the capabilities of the local and
                State resources, the supported combatant commander can submit a request
                for forces, without a primary Federal agency request for assistance.
                Secretary of Defense approval is required to place the requested forces on
                prepare-to-deploy order status.

Accounting for Personnel
2B




        The Services have developed methods to better account for personnel. Following
Hurricane Katrina, JCS documented that it took weeks to account for all personnel.
During Hurricane Katrina, information on forces was pulled from the Status of Readiness
and Training System to gain accountability. Units deployed under verbal orders were
hardest to track because it took longer to enter their information into the system. The
Services have indicated that the process has improved since Hurricane Katrina. The
Navy developed a process to identify military and civilian personnel who are either in the
disaster area or responding to the disaster. The goal is to have a full account within 3 to 5
days of the disaster. The Navy routinely tests this process as part of the disaster
exercises. The Air Force implemented Personnel for Contingency Operations teams that
will deploy to a disaster area with the sole responsibility of tracking Air Force personnel.
The Army will deploy a team and personnel system to the Operational Command Post to
track all personnel movements into or out of the disaster recovery area. The Army can
also send smaller teams directly to units in instances where the disaster responders are in
the area before the personnel teams arrive. Although we did not audit the steps the
Services have taken to improve tracking of personnel, the actions show that the Services
are more aware of DoD personnel in a disaster area.




* Joint Publication 01-02 as amended, October 17, 2007, defines supported commander as “the commander
who receives assistance from another commander’s force or capabilities.” Generally, USNORTHCOM is
the supported combatant command for DSCA operations within the continental United States. Other
combatant commands can provide DSCA. This report focuses on USNORTHCOM.


                                                  9
Training Courses
23B




        DoD personnel completed various courses on disaster response. USNORTHCOM
and Army North jointly developed a DSCA training course to provide an extensive
overview of DoD capabilities and authorities. The course establishes how DoD
coordinates and interacts with Federal, State, and local government agencies. The course
also provides information on the 2004 National Response Plan, types of assistance
provided by DoD, and training exercises. The course is offered to active-duty Service
members and reservists; members of the National Guard and the Coast Guard;
Department of Homeland Security officials; State and local officials; and officials from
other Federal agencies. Personnel from different agencies can interact with one another
and discuss DSCA operations. As of September 2007, Army North stated that 963 DoD
personnel and 87 interagency personnel have completed the course. Additionally, DoD
personnel have completed FEMA courses on the mission assignment process.

Lessons Learned Task Force
       On October 24, 2005, the Deputy Secretary of Defense designated the
McHale-Mauldin Task Force to represent DoD in the Homeland Security Council-led
comprehensive review of the Federal response to Hurricane Katrina. The McHale-
Mauldin Task Force collected DoD Component lessons learned documents following
Hurricane Katrina, oversaw an internal DoD review of Hurricane Katrina, and centrally
coordinated the responses to inquiries from other non-DoD entities regarding the DoD
response to Hurricane Katrina.

DoD Coordination Areas for Improvement
9B




DoD continues to have coordination issues that could affect readiness and situational
awareness during disaster relief efforts. DoD does not adequately coordinate with other
disaster relief components before accepting and staffing mission assignment requests.
USNORTHCOM has not jointly staffed DCO positions with members of each Service.
Only the Army provides DCO billets. Also, DoD disaster simulation exercises conducted
since Hurricane Katrina may not be addressing the needs and concerns of all DoD
Components involved in DSCA operations. Finally, disaster responders were unaware of
FEMA guidance on purchasing equipment for disaster relief efforts. DoD can address
most of these issues through changes to internal policy and processes. DoD should
address these concerns to have better coordination between the DoD Components and
other disaster response groups.

DoD Policy for Providing Defense Support to Civil Authorities
        DoD is required by Directive 3025.15, “Military Assistance to Civil Authorities,”
to assess appropriateness as part of the CARRLL analysis before accepting a mission
assignment; however, the Directive does not clearly define “appropriateness.” According
to the 2004 National Response Plan, DoD resources should be used only after local,
State, FEMA, and other Federal resources are overwhelmed. Because the Directive does
not adequately define appropriateness, DoD personnel did not have a policy for assessing
whether other disaster responders could perform work before submitting FEMA requests
to the Secretary of Defense for approval. Specifically, JCS and Air Force personnel
observed instances in which the DoD Hurricane Katrina disaster response could have


                                           10
been more appropriately integrated with the National Guard, Coast Guard, and Civil Air
Patrol. DoD and FEMA should better coordinate and integrate these resources with DoD
to result in a quicker and less costly disaster response as discussed below.

Coordinating With the National Guard and the Coast Guard
                DoD does not have policy that clearly requires DoD to coordinate with the
National Guard and the Coast Guard before accepting mission assignments. Currently,
DoD policy does not include a requirement to assess coordination with other responders
as an attribute of appropriateness of the mission assignments. Although we did not
independently assess the extent to which each of the entities provided support during
Hurricane Katrina, DoD officials believed that better coordination and integration of the
National Guard, Coast Guard, and Civil Air Patrol during Hurricane Katrina may have
resulted in an improved response. Although the National Guard can be federalized
(controlled by the President rather than State Governors), the National Guard is generally
a State-controlled asset, and each State has a different set of objectives for disaster
response. The JCS observed the following after Hurricane Katrina.

       •   In an enduring or multi-State crisis, JCS is concerned that the command and
           control process is fragmented when DoD and the National Guard are
           participating simultaneously.
       •   Governors generally accept the action to federalize and give control of DoD
           and National Guard forces to a National Guard commander to ensure that the
           response serves both DoD and National Guard interests. The President or the
           Secretary of Defense can give control to DoD officers, but Governors usually
           prefer that the President or Secretary give the control to the National Guard
           officers.

       •   DoD should establish a mechanism for the Coast Guard to contact DoD for
           immediate support without a bureaucratic process.

Coordinating With the Civil Air Patrol
                DoD does not have policy that clearly requires DoD to coordinate with the
Civil Air Patrol, which is a volunteer civilian Component of the Air Force. The Civil Air
Patrol can perform many of the same functions the Air Force performed during Hurricane
Katrina relief efforts. Civil Air Patrol performs missions for search and rescue, disaster
relief, and homeland security operations. Since 1948, the Secretary of the Air Force has
had the authority to provide resources to the Civil Air Patrol so that the Air Force and the
Civil Air Patrol can assist each other with their missions. The Civil Air Patrol flew
nearly 1,000 aircraft support missions during Hurricane Katrina. The Air Force believes
increased use of the Civil Air Patrol could result in lower costs and more efficient relief
efforts. According to Air Force officials, the average cost of Civil Air Patrol missions
during Hurricane Katrina was about $126 per flying hour compared with about $3,000
per flying hour for Air Force missions. The Civil Air Patrol can perform many missions
that the Air Force performed during Hurricane Katrina and does not require the same
approval process or support structure as the Air Force requires. The Civil Air Patrol also
has more flexibility for surveillance than do DoD military forces. However, DoD policy
does not clearly require an assessment to use the Civil Air Patrol before DoD resources.


                                            11
Staffing DCO Positions
         USNORTHCOM has not obtained an equal and adequate level of effort from all
Services to jointly establish the DCO program. At present, only the Army provides
billets and personnel for the DCO program. According to the Army, the other Services
were given the opportunity but chose not to participate in the DCO program. As of June
2008, one DCO is assigned to each of the 10 FEMA regions. Having DCOs collocated
with FEMA personnel in each of the regions helps DoD coordinate and integrate disaster
response with local, State, and Federal agencies. Although the redeveloped role of the
DCO and the implementation by the Army have improved DSCA operations, we believe
that a jointly staffed DCO would further increase effectiveness of the program. Each
Army DCO receives input from the other Services through the Emergency Preparedness
Liaison Officers, but having an Air Force DCO rather than an Army DCO could be
beneficial for certain events, especially for fire-fighting missions that are primarily air-
based. Similarly, a DCO with naval expertise may also be beneficial when missions
primarily involve maritime or diving capabilities. Although the DCOs are currently
assigned by FEMA region and not by type of disaster response, USNORTHCOM could
benefit from having DCOs from all of the Services. A jointly staffed DCO program
would better fulfill the joint USNORTHCOM DSCA mission rather than a program
staffed only by the Army.

Implementing Tools Used in Approval Process
        DoD has partially developed two tools to assist with the approval process and
tracking of mission assignments that could be improved. Army North, in conjunction
with USNORTHCOM, has not fully developed the DoD DSCA Automated Support
System (DDASS), a Web-based automated approval tracking tool. Additionally, DoD
has not adequately maintained the DoD Resources Tool to estimate costs of a mission
assignment. DCEs must estimate costs associated with mission assignments from
numerous channels rather than from a single location. By fully developing and
maintaining these tools, DoD will have better controls over the status of a mission
assignment and submit more realistic cost estimates of DoD support to FEMA.

Automated Tracking System
                DoD did not have an efficient system in place for approving and tracking
the status of mission assignments during Hurricane Katrina. Specifically, during
Hurricane Katrina, DoD required coordination signatures on forms from various offices
involved in the approval process. We reviewed documentation at JCS and
USNORTHCOM on the Hurricane Katrina relief efforts and determined that coordination
forms for numerous execute orders were incomplete, while the copies of the same forms
maintained at ASD(HD&ASA) were more complete. See Appendix E for the
organizations involved in the DSCA approval process. DoD Components maintained
forms that were not always up-to-date because the approval and tracking process was
done manually through a series of hardcopy coordination forms. In addition to missing
signatures, we identified instances in which documents were missing, dates for signatures
did not match the normal flow of documentation, or information from the FEMA request
was not sufficiently recorded on the DoD forms.


                                             12
               We compared spreadsheets that were manually compiled by JCS,
USNORTHCOM, Financial Manager-Katrina, and the Department of Homeland Security
to track mission assignments and amendments; however, none of the spreadsheets
contained all mission assignments or amendments. We reviewed these four spreadsheets
and also compiled our own spreadsheet based on our review of mission assignment
documentation in a USNORTHCOM resource library. We identified 121 mission
assignments and 189 amendments on at least one of the spreadsheets. Our spreadsheet
contained 111 of the 121 mission assignments. The JCS, USNORTHCOM, Financial
Manager-Katrina, and Department of Homeland Security compiled less complete
spreadsheets that identified between 103 and 110 mission assignments each.

                DoD maintained less complete information on mission assignment
amendments than on the original mission assignments. The Department of Homeland
Security spreadsheet contained information on 179 of the 189 amendments. The JCS,
USNORTHCOM, and our own spreadsheet each contained slightly more than half of the
amendments. The Financial Manager-Katrina spreadsheet did not separate amendment
information so we could not accurately determine the amendments it contained. By not
adequately tracking mission assignment amendments, DoD risked performing
unnecessary work because the amendments may instruct DoD to change the scope,
cancel, or extend disaster relief efforts. These DoD Components had incomplete
oversight of the entire Hurricane Katrina operation as demonstrated by the incomplete
spreadsheets that the different parties maintained. Since Hurricane Katrina, DoD has
taken the initiative to develop an automated approval tracking system called DDASS.
During our review, DDASS consisted only of the Mission Assignment Tracking Manager
and Defense Coordinating Element Coordination Manager modules. We believe that
many of the approval and tracking issues we noted during our review of documentation
from Hurricane Katrina will be addressed by full implementation of the DDASS system.

               Army North is developing DDASS, in collaboration with
USNORTHCOM, to track the approval process and critical information on operations.
When fully developed, DDASS should provide real-time information and will allow DoD
users to monitor the approval, sourcing, costs, and progress of mission assignments.
DDASS has been used in exercises and smaller real-world events. Army North recently
upgraded the system to be Web-based with increased connectivity at remote locations.
Army North missed an internal milestone of December 31, 2007, for implementing
Financial Management and Request for Forces modules. Subsequently, the purpose of
the Financial Management module has been revised to include the entire reimbursement
process. Army North has made the development of this module the number one priority.
Additionally, the need for the Request for Forces module has been eliminated from the
system requirements. DoD should have real-time oversight of mission assignments from
approval to closeout when DDASS is fully implemented.

DoD Resources Tool
               DoD has not adequately maintained a central resource for helping DCE
personnel estimate costs associated with a mission assignment. According to



                                          13
USNORTHCOM, prior to Hurricane Katrina the U.S. Army Forces Command developed
a compact disk to provide cost estimates for the use of DoD resources. DCEs used the
data to provide cost estimates to organizations that requested DoD assistance. However,
no Component updated the compact disk, and the information on it became obsolete.
Currently, DCEs pull cost data from numerous sources to determine the estimated costs
to complete a mission assignment. The resources include an Under Secretary of Defense
(Comptroller)/Chief Financial Officer database for cost per flight hour of various aircraft,
Joint Travel Regulations for per diem rates, and Service-specific information for costs to
use public airport facilities and similar data. The information from these resources is not
contained in any single location. Experienced DCE personnel are aware of the various
resources available, but as personnel change positions, the knowledge of these sources
may be lost. To mitigate the chance that new employees will not know where to find this
information, DoD should maintain and routinely update a single tool to estimate costs of
DoD resources.

Disaster Relief Exercises
        Personnel from ASD(HD&ASA) and the Services discussed inefficiencies
regarding coordination and participation during training and operational exercises since
Hurricane Katrina. USNORTHCOM sponsored the Ardent Sentry and Vigilant Shield
Exercises to help participants become better prepared to prevent and respond to a national
crisis. DoD, Department of Homeland Security, and other organizations involved in
disaster relief are invited to participate in these DSCA exercises. DoD personnel we
interviewed predominately agreed these and other smaller exercises were beneficial.
However, ASD(HD&ASA) and Air Force officials expressed opinions that the mock
disasters in exercises were artificial and set up for success rather than set up to test the
limits of DoD capabilities. Although the DCE is a joint function, DCOs stated that the
Services were not always willing to activate their respective Emergency Preparedness
Liaison Officers, who are primarily reservists, to participate in training and operational
exercises. Also, Air Force and Army personnel discussed concerns about exercises being
too focused on national objectives rather than broad DoD and lower-level DoD
Component objectives. Improved coordination between USNORTHCOM and the
Services during training and exercises should increase DoD readiness for future support
in disaster operations. DoD should strive for full participation by Emergency
Preparedness Liaison Officers, routinely provide opportunities to test the complete DSCA
operations, and limit artificial assumptions when planning future exercises.

Testing Capabilities in Exercises
               ASD(HD&ASA), Air Force, and Army officials expressed concerns
regarding the development and planning of exercises. Specifically, the officials noted
concerns with the preparation and planning of the exercises.

                An ASD(HD&ASA) official stated that USNORTHCOM generally
develops the exercises for a successful outcome rather than testing the limits of the
disaster response capabilities. DoD informs exercise participants about the extent of the
mock disaster before the exercise. The disclosure allows the participants in the exercises
to pre-position and provide assets rather than react based on the events that occur during


                                            14
the exercise. Also, the official believed that States are more willing to share National
Guard resources with neighboring States through established agreements when they know
that the disaster will not affect their State. In a real-life situation, some DoD personnel
believe that States may withhold resources for their own protection against unknown
events.

                Air Force North-proposed Service-level objectives were not being
adequately implemented and tested during the exercises. For example, Air Force
objectives for the Ardent Sentry 2007 exercise included testing established homeland
defense systems; testing the use of various aircraft; providing airborne intelligence,
surveillance, and reconnaissance support; and providing Air Force command support to
joint task forces. USNORTHCOM published objectives for the same exercise that
included providing local, State (including the National Guard), and Federal responders an
opportunity to exercise with USNORTHCOM; test execution of response plans; improve
coordination with Canadian partners; and explore coordination opportunities with the
other combatant commands.

                 Air Force personnel stated that the Air Force was not able to accomplish
many of its objectives during the Ardent Sentry 2007 exercise. Because the Service-level
objectives were not built into the overall objectives, the Air Force was predominantly
forced to sit idle when States indicated that they could provide the necessary support.
The Air Force conducted its own smaller exercises to test its own objectives. According
to Air Force North personnel, the exercises were not as effective because they did not
include higher level command and control functions.

               Army North encountered a situation similar to that of Air Force North.
Service-level objectives were not always being adequately incorporated into the larger
USNORTHCOM objectives. However, Army North personnel also stated that
USNORTHCOM was justified in making the objectives broader for large-scale exercises
because time and resources are limited when multiple responders are involved.
According to the Army, DoD needed to exercise with other responders first because
issues with that process affect the entire chain of DoD relief efforts. When the issue is
solely within DoD, DoD can conduct other exercises at a later time.

According to USNORTHCOM:

               USNORTHCOM exercise planners are aware of the concerns from Air
               Force North and Army North. Four exercise planning conferences are
               conducted for every exercise, and all exercise participants contribute
               and advocate for inclusion of their training objectives. However, due to
               time, fiscal, logistical, and other constraints, the final result is a
               compromise between the needs of participating organizations, and not
               all training objectives can be included. This is especially true when
               USNORTHCOM exercises are linked [to] the National Level Exercises
               . . . as part of the National Exercise Program. Therefore, major
               Interagency exercises may not be the best arena to address Service-
               level concerns. If the objectives are still not addressed during those
               exercises, the USNORTHCOM Components (in collaboration with
               USNORTHCOM) can address these issues during their own exercises.


                                                 15
                We agree that time and resources limit the ability to inject all Service
component objectives during exercises, but we believe that USNORTHCOM should
devote some effort to Service-level concerns in future National Level Exercises. DoD
should occasionally exercise the entire DSCA operation from request to closeout to
pinpoint problems in the coordination process. Service Components should have
opportunities to address concerns that involve interagency coordination that cannot be
replicated in internal DoD exercises.

Participation of Emergency Preparedness Liaison Officers in Training
and Exercises
               The DCOs we interviewed stated that they do not have the authority to
activate personnel needed for the training and exercises. According to DoD
Directive 3025.16, “Military Emergency Preparedness Liaison Officer Program,”
December 18, 2000, individual Services are responsible for providing support when
necessary. The DCOs believed that having authority to activate the reservists for the
training and other exercises might be beneficial, but they noted that activation has not
been a problem for real-world disasters or when the Services are given advance notice of
exercises. The DCOs were divided on whether the benefit would outweigh the
administrative burden placed on the DCOs if they had the authority to activate reservists.

Equipment for Mission Assignments
        Navy officials were not fully aware of the requirements for obtaining equipment
used for mission assignments. According to the FEMA Web site, responders should
purchase equipment under a mission assignment only if FEMA does not have existing
equipment readily available. If FEMA does not have equipment available, responders
can purchase equipment and later turn it in to FEMA for reimbursement. However, when
the responder receives written permission, FEMA allows the responder to keep the
equipment. We identified instances in which Navy responders purchased new equipment
or replaced damaged equipment without notifying FEMA. The Navy believes that
following FEMA requirements would have hindered or delayed DoD response efforts.
Generally, the Navy disaster responders could not request FEMA equipment because they
were already in the disaster area awaiting a mission assignment. The units carried their
own equipment to the disaster area because it was readily available and compatible with
the rest of the equipment they were using for the disaster relief. Also, the responders had
already received training on using the equipment. The Navy has struggled to obtain
reimbursement for the equipment used during Hurricane Katrina relief efforts because the
repair or purchase was not adequately coordinated with FEMA. As of September 4,
2007, the Navy had not received reimbursement for about $4.8 million of the equipment
used for Hurricane Katrina relief efforts. Because DoD has equipment that could be
useful for disaster relief efforts, DoD and FEMA should reach an agreement to allow use
of existing equipment and obtain equitable reimbursement of costs resulting from this
use.




                                            16
Conclusion
10B




DoD continues to have coordination issues with other responders. DoD policy for
assessing mission assignments for acceptance is vague and has not been updated to
include all DoD organizations included in the mission assignment process. Also,
USNORTHCOM has not jointly staffed the DCO positions. DoD has not fully developed
or maintained tools that could be used for a smoother disaster response. In addition, DoD
does not have full participation for the training and exercises and, in some cases, the
training and exercises do not test for the unexpected. Finally, DoD responders need to
understand FEMA requirements if they plan to obtain reimbursement for equipment used
for disasters. Until DoD resolves these coordination issues, DoD risks having an
inefficient disaster relief process that could be more costly than necessary.

Recommendations, Client Comments, and Audit
1B




Response

Redirected and Renumbered Recommendations
As a result of Assistant Secretary of Defense for Homeland Defense and Americas’
Security Affairs comments on the draft report, we redirected draft Recommendations
A.3.b. and A.3.c. This resulted in renumbered recommendations. Draft
Recommendation A.3.b. was redirected to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and is now Recommendation A.2. Draft
Recommendation A.2. to the Commander, U.S. Northern Command is now
Recommendation A.3. Draft Recommendation A.3.c. retains its numbering, but is now
addressed to the Commander, U.S. Northern Command rather than to the Assistant
Secretary of Defense for Homeland Defense and Americas’ Security Affairs. See page
52 for a memorandum from the Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs regarding the redirection of our recommendations.

A.1. We recommend that the Chairman, Joint Chiefs of Staff:

      a. Develop an implementation plan to migrate the staffing of Defense
Coordinating Officer positions from Army to all Services and other DoD
Components, as appropriate.

       b. Develop procedures to determine whether DoD adequately coordinates
with other responders before submitting Federal Emergency Management Agency
requests for assistance to the Secretary of Defense for acceptance.

       c. Assign the development and routine updating of a DoD-wide tool for
estimating costs associated with mission assignments to an appropriate Component.




                                           17
Joint Chiefs of Staff Comments
The Chairman of the Joint Chiefs of Staff concurred with recommendations A.1.a.,
A.1.b., and A.1.c. The Joint Chiefs of Staff plans to initiate actions to address our
recommendations with completion dates ranging from the end of FY 2008 to FY 2010.

Audit Response
The Chairman of the Joint Chiefs of Staff comments were responsive. No additional
comment is necessary.

A.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer develop a memorandum of understanding with the Federal
Emergency Management Agency that establishes guidelines and requirements for
using and being reimbursed for DoD equipment used on mission assignments.

Recommendation A.2. was redirected to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer based on comments from the Assistant Secretary of
Defense for Homeland Defense and Americas’ Security Affairs. We require comments
from the Under Secretary of Defense (Comptroller)/Chief Financial Officer on this
redirected recommendation.

A.3. We recommend that the Commander, U.S. Northern Command:

      a. Adjust and adhere to milestones for full development of the DoD Defense
Support of Civil Authorities Automated Support System.

       b. Review the planning process for exercises to determine whether the
current exercise structure allows adequate opportunity for all DoD Components
involved in Defense Support of Civil Authority missions to exercise with
interagency partners.

      c. Determine whether the DoD 3025 series of directives provides adequate
authority to Defense Coordinating Officers to ensure that DoD maintains an
adequately trained and exercised Emergency Preparedness Liaison Officer
Program.

U.S. Northern Command Comments
U.S. Northern Command concurred with recommendations A.3.a. and A.3.b. According
to the Inspector General, U.S. Northern Command, who responded for the Commander,
the U.S. Northern Command has fully funded the DoD Defense Support of Civil
Authorities Automated Support System, and implementation should be complete by the
end of calendar year 2008. Additionally, the Inspector General, U.S. Northern Command
commented on multiple resources that have been developed to prepare and advocate
exercise objectives, but noted that funding limits these resources both within DoD and
with interagency partners.




                                          18
We redirected Recommendation A.3.c. to the Commander, U.S. Northern Command
based on comments from the Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs. We require comments from the Commander, U.S. Northern
Command on this recommendation.

Audit Response
The U.S. Northern Command comments were responsive. No additional comment is
necessary for Recommendations A.3.a. and A.3.b. We require comment from the
Commander, U. S. Northern Command on redirected Recommendation A.3.c.

A.4. We recommend that the Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs revise policy in the DoD 3025 series of directives on
assessing cost, appropriateness, readiness, risk, legality, and lethality (CARRLL
analysis) to clarify the term “appropriateness.” The policy should establish
procedures to assess whether other disaster responders, including local, State,
Federal, and private resources, are more appropriate to complete the request before
accepting disaster relief missions. The policy should consider factors such as urgent
need and complexity of some missions so that DoD can respond when required but
still maintain a supporting role in disaster response efforts.

Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs Comments
The Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs concurred with comment, stating that the guidance needs to be flexible so that
each request can be reviewed on a case-by-case basis.

Audit Response
The Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs comments were responsive. We did not intend for the recommendation to revise
the DoD 3025 series to be restrictive when DoD response is needed. Rather, we are
recommending that the policy provide a framework on what should be considered to
determine what is appropriate for DoD response. The updated policy should provide
uniform guidance on what is appropriate for DoD response, but also allow DoD action in
extreme circumstances. No additional comment is necessary.




                                           19
Finding B. Financial Management for
Hurricane Katrina Mission Assignments
Initially, DoD did not effectively manage financial operations during the Hurricane
Katrina relief efforts. DoD made improvements to financial operations, but DoD has not
adequately updated guidance to reflect effective measures taken as Hurricane Katrina
relief efforts progressed. DoD did not effectively manage financial operations because of
outdated and conflicting guidance in place that did not:

                    •   identify updated roles and responsibilities of participating commands;

                    •   require the allocation of reimbursable budget authority at the
                        supported combatant command (USNORTHCOM) level;
                    •   provide tracking instructions that produced uniform results and
                        consolidated funding information at the DoD-wide level; or

                    •   require execute orders to be within the scope of work listed on the
                        related FEMA mission assignment.

      As a result, DoD risked exceeding FEMA mission assignment dollar thresholds. DoD
      also risked losing track of total costs and could have been denied reimbursement for
      funds spent related to Hurricane Katrina disaster relief efforts.

DoD Financial Management Related to Hurricane Katrina
12B




Initially, DoD did not effectively manage financial operations during the Hurricane
Katrina relief efforts. USNORTHCOM did not consistently communicate financial
information among DoD Components in an effective manner. For example, DoD
Commanders quickly responded to the disaster area in the interest of saving lives and
mitigating property damage, but risked not being reimbursed when tasks completed did
not fall within the time and performance limitations of FEMA requests. Additionally,
USNORTHCOM did not include mission assignment numbers or dollar amounts in the
first 12 execute order modifications, adversely affecting initial financial operations. DoD
did improve financial operations throughout Hurricane Katrina relief efforts by
establishing the Financial Manager-Katrina and by including some financial information
on later execute order modifications. However, USNORTHCOM’s initial lack of
effective financial management complicated DoD work and risked overobligation of
budget authority. Also, DoD has not updated guidance to adequately reflect the effective
measures that were taken during Hurricane Katrina relief efforts.

Effect of Outdated Guidance on Hurricane Katrina
13B




Financial Management Procedures
DoD did not have guidance in place to effectively manage financial operations during the
Hurricane Katrina relief efforts. ASD(HD&ASA), JCS, and USNORTHCOM did not
update guidance to reflect new roles and responsibilities related to the command structure


                                                 20
and management of DSCA operations. USNORTHCOM did not allocate funding among
multiple DoD Components providing support to the same mission assignment. DoD
Components did not have instructions that identified reimbursable costs and tracking
methodologies to ensure that information was uniform and could be shared across DoD.
DoD Components did not have procedures to ensure units were tasked within the scope
of work on FEMA mission assignments.

Undefined Roles and Responsibilities
        DoD has outdated guidance in place that does not define financial practices and
management responsibilities. The DoD 3025 series of directives does not reflect the
appointment of ASD(HD&ASA) or his being delegated the “duties and authorities
associated with these DoD Executive Agent assignments” or the establishment of
USNORTHCOM as the supported combatant command. The JCS did not update Joint
Publication 01-06, “Joint Tactics, Techniques, and Procedures for Financial Management
During Joint Operations,” prior to Hurricane Katrina to reflect the establishment and
responsibilities of USNORTHCOM. USNORTHCOM did not consistently include
financial information from FEMA in execute order modifications issued to DoD
Components. Under the configuration in place, the Financial Management Augmentation
Team (FMAT) initially is not a joint function because it is composed of mostly Army
staff. Additionally, FMAT is geographically separated from the USNORTHCOM
Operations Directorate, hindering FMAT’s ability to provide financial input into the
execute order issuing process. The FMAT has only draft guidance to explain financial
operations and activation procedures.

Outdated Roles and Responsibilities in the DoD 3025 Directives
                DoD did not update the DoD 3025 series of directives when
ASD(HD&ASA) was delegated the “duties and authorities associated with these DoD
Executive Agent assignments” and USNORTHCOM was established. The DoD 3025
directives establish the framework for disaster response and the roles and responsibilities
of major participants. In July 2005, ASD(HD&ASA) was updating and consolidating the
DoD 3025 directives with the DoD 3025.dd, “Defense Support of Civil Authorities,” and
3025.dd-m, “Manual for DSCA.” DoD 3025.dd consolidates, updates, and supersedes
existing directives on DoD policy for providing civil support during domestic
emergencies, but it was not issued prior to the landfall of Hurricane Katrina. The
Secretary of the Army was still named as executive agent, and responders were instructed
to seek reimbursement from the Defense Emergency Response Fund by the DoD 3025
directives in place during the Hurricane Katrina relief efforts. As of April 2008, DoD
3025.dd remained in draft and had not been issued.

Improvements to the DoD 3025 Directives Reported Previously
               In DoD Inspector General (IG) Report No. D-2007-002, “Use of DoD
Resources Supporting the Hurricane Katrina Disaster,” October 16, 2006, we reported
that DoD policies covering support and assistance to civil authorities were not updated to
reflect changes in the designation of the executive agency and in organizational structure.
We recommended that the Under Secretary of Defense for Policy update
DoD Directive 3025.1 and the Assistant Secretary of Defense for Special Operations and


                                            21
Low-Intensity Conflict update DoD Directive 3025.15 to identify ASD(HD&ASA) as the
executive agent and USNORTHCOM as the supporting combatant command for DSCA.
DoD IG Audit Followup has been working with the Office of the ASD(HD&ASA),
which plans to issue a single document, DoD 3025.dd, that will address both
recommendations.

Joint Publication 1-06 Prior to Katrina
                 JCS did not update Joint Publication 1-06 prior to the Hurricane Katrina
relief efforts to reflect the roles and responsibilities of USNORTHCOM. Joint
Publication 1-06 defines the roles and responsibilities of combatant commander
comptrollers and Service Component comptrollers. The goal is to provide a single staff
element to oversee financial management for the combatant commander. Joint
Publication 1-06 directs Service Components to allocate funds at the Service Component
level. The establishment of USNORTHCOM should have required the allocation of
funds at the supported combatant command level during Hurricane Katrina. JCS revised
Joint Publication 1-06 on March 4, 2008, to include a section on DSCA allocation.
Additionally, JCS issued Joint Publication 3-28, “Civil Support,” on September 14, 2007.
JCS should routinely update publications to reflect changes in Federal regulations such as
the Economy and Stafford Acts, DoD policies, and the National Response Framework.

USNORTHCOM Issued Incomplete Execute Orders
                 USNORTHCOM did not include FEMA mission assignment information
in the first 12 execute order modifications issued during Hurricane Katrina relief efforts.
USNORTHCOM did not consistently include FEMA mission assignment numbers on
execute order modifications, nor did it allocate reimbursable budget authority by portion
of work assigned. According to USNORTHCOM, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer directed USNORTHCOM not to allocate
reimbursable budget authority, but neither USNORTHCOM, the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, nor the audit team could obtain
information to verify this statement. USNORTHCOM compensated for the missing
mission assignment information on the first 12 execute orders by issuing execute order
modifications 13 and 17, which aligned all previous orders with FEMA mission
assignments and included mission assignment information that had not been included in
previous orders. USNORTHCOM did not have guidance in place that required specific
information in execute orders. USNORTHCOM issued execute order modifications that
were incomplete and adversely affected DoD Components’ ability to manage financial
operations during the initial response to Hurricane Katrina.

Challenges With USNORTHCOM Oversight and Structure of the FMAT
                USNORTHCOM should take a more proactive role in overseeing the
financial oversight of joint operations. Under the current structure, the FMAT function
begins at the Service Component level. For most missions, the FMAT is based at and
operated by Army North and is staffed by Army personnel. In the event of a large
disaster, personnel from other DoD Components and organizations can augment the
FMAT, and then the FMAT can be relocated to USNORTHCOM headquarters.
Regardless of location, USNORTHCOM oversees the FMAT. When the FMAT is not


                                            22
located at USNORTHCOM headquarters, the FMAT has limited interaction with the
USNORTHCOM Operations Directorate. When the FMAT is at the Service Component
level, USNORTHCOM financial managers should increase interaction with the
Operations Directorate to facilitate writing orders that include necessary information for
units to obtain reimbursement. USNORTHCOM should develop standard procedures for
the FMAT to allocate Service-level dollar limitations for joint mission assignments.
USNORTHCOM should also routinely assess the readiness of the Service Components to
provide consistent support to the FMAT when the FMAT becomes a joint function with
USNORTHCOM. USNORTHCOM should develop written procedures for transferring
the FMAT to USNORTHCOM when the need arises. Additionally, USNORTHCOM
should ensure that the Army is not the only Service that can take a leading financial
management role in the event of near-simultaneous disasters requiring separate and
distinct FMAT support. We did not test the FMAT, but we did assess the capabilities of
the function. We believe that a properly trained and staffed FMAT will help mitigate
financial management problems identified during the Hurricane Katrina relief efforts.

FMAT Involvement During Hurricane Dean in 2007
               Army North served as the sole FMAT point of contact for issuing
reimbursable budget authority during Hurricane Dean in 2007. The Hurricane Dean
execute orders included information on obtaining reimbursable budget authority and
coordination with the FMAT team. Although DoD has worked to improve financial
operations during DSCA operations through the use of the FMAT, the improvements
have not been tested by a large-scale disaster like Hurricane Katrina.

FMAT Draft Guidance
               The FMAT has only draft guidance in place to direct DSCA operations.
USNORTHCOM is developing but has not issued the “Defense Support of Civil
Authorities Financial Management Process.” The proposed guidance provides financial
management procedures for DoD responders and procedures for activating the FMAT.

Summary of Undefined Roles and Responsibilities
                DoD needs to update and implement DSCA guidance to ensure that DoD
Components have guidance in place prior to beginning disaster relief efforts.
ASD(HD&ASA) should issue both the DoD 3025.dd and 3025.dd-m to reflect the
establishment of new organizations such as USNORTHCOM and the appointment of
ASD(HD&ASA). JCS should routinely update publications to reflect changes to Federal
and DoD regulations. USNORTHCOM should maintain better oversight of the FMAT
function at the Service Component level. USNORTHCOM should also establish
guidance for the FMAT and DoD financial management during DSCA by finalizing the
draft guidance.

Allocation of Costs Based on Delegation of Work
        USNORTHCOM did not allocate funds among DoD Components when multiple
Services were tasked to the same mission assignment. Depending on the number of
Services tasked, DoD risked overstating reimbursable budget authority from FEMA by
up to three times the initial dollar amount. The overstatement occurred at the DoD


                                           23
Component level because DoD did not have guidance or procedures in place that required
USNORTHCOM to allocate reimbursable budget authority. The Navy instructed units to
seek reimbursement from a single FEMA mission assignment in order to consolidate
billing efforts. In our audit work, we noted several instances of the nonallocation of
funds; the following are two examples.

Mission Assignment — Mississippi 07
               DoD could have overallocated $45 million in reimbursable budget
authority on Mississippi 07. USNORTHCOM did not allocate mission assignment
funding among Service responders. Instead, the Army, Navy, Air Force, and Marine
Corps could each have allocated the total dollar value of the mission assignment. FEMA
issued Mississippi 07 on August 30, 2005, for $15 million. FEMA requested
36 helicopter units to transport Federal personnel, supplies, equipment, and casualties in
Mississippi and Louisiana. USNORTHCOM tasked multiple units without allocating
funding based on the portion of work assigned. Each Service could have sought
reimbursement for the full amount listed on the mission assignment, causing
overstatements of reimbursable budget authority or violations of the Antideficiency Act if
the Services spent more than the amount listed on the FEMA mission assignment.

Mission Assignment — Mississippi 19
                DoD could have overallocated $2 billion in reimbursable budget authority
on Mississippi 19. USNORTHCOM did not allocate the mission assignment funding
among Service responders. Instead, the Army, Navy, and Air Force each could have
allocated the total dollar value of the mission assignment. FEMA issued Mississippi 19
on September 2, 2005, for $1 billion. The mission assignment had a broad scope that
allowed DoD to include various types of relief assistance under the request. As with
Mississippi 07, USNORTHCOM did not allocate the dollar value when it delegated the
mission assignment to the responders. To further complicate financial management
issues, Navy requested reimbursement for most relief efforts during Hurricane Katrina
under the Mississippi 19 mission assignment instead of charging the appropriate costs to
each mission assignment supported. The Navy billing practices could have prevented
DoD from receiving reimbursement for Hurricane Katrina efforts because FEMA
guidance does not allow responders to consolidate similar efforts and bill them to one
mission assignment. Instead, FEMA requires responders to bill the efforts to the
appropriate mission assignment.

Risk of Overstating Reimbursable Budget Authority
                The Navy and Air Force were initially not allocating funding but the
overall risk of overstating reimbursable budget authority was low. DoD Components
were unlikely to breach FEMA mission assignment dollar thresholds because of large
ceiling amounts obligated by FEMA. However, if each DoD Component expended the
entire amount on the mission assignment, DoD could have potentially exceeded funding
ceilings provided by FEMA and incurred Antideficiency Act violations. DoD needs to
update financial procedures and guidance to ensure funding is allocated for FEMA
mission assignments at the USNORTHCOM and DoD Component levels.



                                           24
Allocation of Costs Reported Previously
               In DoD IG Report No. D-2006-118, “Financial Management of Hurricane
Katrina Relief Efforts at Selected DoD Components,” September 27, 2006, we reported
that DoD provided responders with the full amount of the mission assignment rather than
an amount based on delegation of work. The Under Secretary of Defense (Comptroller)/
Chief Financial Officer agreed to review and revise policy to require the allocation of
funds and to reflect the involvement of new organizations in disaster relief efforts. The
report noted instances in which United States Transportation Command, Defense
Information Systems Agency, the National Geospatial Agency, and the Special
Operations Command were each assigned a portion of a mission assignment and the
entire funding amount from USNORTHCOM instead of having the funding assigned by
the portion of work assigned. DoD Inspector General Audit Followup has been working
with the Under Secretary of Defense (Comptroller)/Chief Financial Officer on
recommendations in the audit report. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer issued a memorandum for closeout procedures of
Hurricane Katrina mission assignments as well as temporary guidance to address the first
recommendation, but plans to wait for ASD(HD&ASA) to issue guidance prior to
addressing the second recommendation made by the report.

Capturing and Tracking Costs for Mission Assignments
       USNORTHCOM did not issue tracking guidance in the execute order
modifications to DoD Components that clearly identified reimbursable costs. The DoD
Components’ tracking efforts could not be consolidated at a DoD-wide level to determine
how much the Components had charged against a particular FEMA mission assignment.

Identifying Reimbursable Costs in USNORTHCOM Orders
               During Hurricane Katrina, USNORTHCOM issued execute order
modifications that did not provide clear guidance or identify reimbursable costs.
USNORTHCOM issued execute orders and subsequent modifications that name major
statutory authorities DoD can be reimbursed under but did not identify costs that are
reimbursable in specific situations. USNORTHCOM did not clearly identify in execute
order modifications different costs that were reimbursable at different times during relief
efforts.

Disparate Methods for Capturing and Tracking Costs
                USNORTHCOM issued execute order modifications during Hurricane
Katrina that did not identify costs that needed to be tracked or the thresholds against
which DoD Components needed to track costs. DoD responders’ tracking efforts could
not be consolidated at a DoD-wide level because responders tracked costs differently.
For example, Army tracked costs by the overall mission assignment, Navy tracked costs
by the assets responders used for the mission assignments, and Air Force tracked costs
when units redeployed to their home stations.




                                            25
Capturing and Tracking Cost During Future DSCA Efforts
               USNORTHCOM needs to develop and implement tracking procedures
that provide results that can be summarized at the DoD-wide level. USNORTHCOM
should provide financial guidance in the execute order modifications detailing
specifically which costs need to be tracked.

Tasks Performed Outside the Scope of Mission Assignment
        DoD risked not being reimbursed by issuing orders and performing tasks that
were outside the period of performance or assistance requested by the FEMA mission
assignments. DoD ordered units to perform tasks outside of the dates of completion on
mission assignments and, according to officials at FEMA, reimbursement would only be
made for work performed during a specified period. First Army ordered units to perform
tasks outside the scope of work listed on FEMA mission assignments and risked having
reimbursement requests denied because FEMA provides reimbursement only for work
performed within the scope of work of the mission assignment.

Tasks Performed Outside the Period of Performance
               DoD pre-positions units before performance dates listed on FEMA
mission assignments. Pre-positioning units is critical to having a rapid disaster
response. If FEMA does not issue a mission assignment that includes the dates in which
pre-positioning units occurs, DoD must fund the activity. For example, JCS deployed an
Army command and control element to the joint operations area in anticipation of
receiving a mission assignment from FEMA. The Army unit was deployed 6 days before
the related FEMA mission assignment was issued and risked being ineligible for
reimbursement because the tasks it performed in those 6 days were completed outside
performance dates on the FEMA mission assignment. DoD officials stated that FEMA
was lenient in providing reimbursement for pre-positioned forces during Hurricane
Katrina, but FEMA might not be as lenient in the future. ASD(HD&ASA) should create
an agreement with FEMA in accordance with DoD Instruction 4000.19, “Interservice and
Intragovernmental Support,” August 9, 2005, that establishes procedures for DoD
Components pre-positioning resources as necessary and seeking reimbursement for the
pre-positioned resources through applicable regulations such as the Economy and
Stafford Acts.

Tasks Performed Outside of the Assistance Requested
                 First Army issued a military interdepartmental purchase request for
$1 million that was outside the scope of assistance requested by the FEMA mission
assignment. First Army risked having reimbursement requests denied because it ordered
the 18th Airborne Corps to provide chain saws, fuel, food, ice, incremental overtime,
tents, lights sets, portable showers, and outboard motors for a FEMA mission assignment
requesting 36 helicopter units from DoD. DoD should issue orders within the statement
of work on FEMA mission assignments to ensure that units are eligible for
reimbursement. DoD and FEMA should create an agreement that would enable units to
position themselves for a proactive DoD response.




                                          26
Conclusion
14B




USNORTHCOM did not allocate costs for mission assignments based on work delegated
to the responders for Hurricane Katrina, and DoD could have exceeded dollar thresholds
FEMA established for the mission assignments. Allocating funds should allow future
DoD responders to work within FEMA financial constraints for mission assignments. In
addition, DoD did not have guidance for the DoD responders to uniformly and
consistently capture and track costs for the mission assignments, and DoD Components
used different methods for tracking costs. Providing guidance for financial management
of the mission assignments should allow DoD to improve processes for mission
assignments for future disasters.

Recommendations, Client Comments, and Audit
15B




Response
B.1. We recommend that the Chairman, Joint Chiefs of Staff routinely update Joint
Publications to reflect changes in Federal regulations, DoD policies, and the
National Response Framework.

Joint Chiefs of Staff Comments
The Chairman, Joint Chiefs of Staff concurred. The Joint Staff will revise Joint
Publications as changes in the National Response Framework occur.

Audit Response
The Chairman, Joint Chiefs of Staff comments were responsive. No additional comment
is necessary.

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer issue updated guidance upon the release of the new
DoD Directive 3025.dd, “Defense Support of Civil Authorities,” by the Assistant
Secretary of Defense for Homeland Defense and Americas’ Security Affairs as
agreed based on the recommendation from DoD Inspector General Report No.
D-2006-118, “Financial Management of Hurricane Katrina Relief Efforts at Selected
DoD Components,” September 27, 2006. This guidance should require the
allocation of funding based on the amount of work delegated to responders.

Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments
The Under Secretary of Defense (Comptroller)/Chief Financial Officer concurred. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer will issue financial
management guidance after DoD Directive 3025.dd is released.

Audit Response
The Under Secretary of Defense (Comptroller)/Chief Financial Officer comments were
responsive. No additional comment is necessary.



                                           27
B.3. We recommend that the Commander, U.S. Northern Command:

      a. Finalize the draft guidance for the Financial Management Augmentation
Team by issuing “Defense Support of Civil Authorities Financial Management
Process.”

       b. Develop procedures to integrate financial management oversight into the
execute order-writing process for reimbursable missions.

        c. Establish methods to maintain appropriately trained and ready Financial
Management Augmentation Team members at the Service Components with the
ability to operate using consistent methods whether working at the Service or joint
level.

       d. Document procedures to assess the Financial Management Augmentation
Team actions at the Service Component level and determine when the team
transfers to U.S. Northern Command.

U.S. Northern Command Comments
U.S. Northern Command concurred with Recommendations B.3.a., B.3.b., B.3.c., and
B.3.d. The Inspector General, U.S. Northern Command, responding for the Commander,
stated that U.S. Northern Command is developing an instruction to address the financial
management process during Defense Support to Civil Authority events. U.S. Northern
Command has a representative in the Future Operations Center to provide financial input
during the order-writing process. U.S. Northern Command conducts yearly training for
the Financial Management Augmentation Team to maintain proficient personnel. U.S.
Northern Command stated that procedures for transferring the Financial Management
Augmentation Team to U.S. Northern Command are already documented in the Defense
Support to Civil Authorities Financial Management Process manual dated March 1, 2007.

Audit Response
U.S. Northern Command comments were not fully responsive. When we requested a
copy of the final Defense Support to Civil Authorities Financial Management Process
manual, U.S. Northern Command responded that the manual was available only in draft
form. Additionally, in a May 2008 e-mail, U.S. Northern Command personnel noted that
the procedures for transferring the Financial Management Augmentation Team to U.S.
Northern Command were not documented. After further discussion, U.S. Northern
Command stated that the intent of Recommendation B.3.d. will be accomplished through
the issuance of the instruction that U.S. Northern Command is developing. Although the
original U.S. Northern Command comments were not entirely responsive, through
additional discussions, we determined that the intent of our recommendations should be
addressed by the instruction that is currently being drafted. No additional comment is
necessary.




                                          28
B.4. We recommend that the Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs:

      a. Update and issue DoD Directive 3025.dd, “Defense Support of Civil
Authorities,” to reflect the new organizations, roles, and responsibilities.

       b. Develop a memorandum of understanding in accordance with DoD
Instruction 4000.19, “Interservice and Intragovernmental Support,” with the
Federal Emergency Management Agency that establishes procedures for DoD
Components pre-positioning resources as necessary and seeking reimbursement for
the pre-positioned resources through applicable regulations such as the Economy
and Stafford Acts.

Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs Comments
The Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs concurred with Recommendation B.4.a. The new DoD 3025.dd Directive is
scheduled to be released in September 2008. The Assistant Secretary of Defense for
Homeland Defense and Americas’ Security Affairs concurred with comment on
Recommendation B.4.b., noting that support is reimbursable only when requested by
FEMA.

Audit Response
The Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs comments were responsive. No additional comment is necessary.




                                          29
Issues Outside DoD Control
We identified several issues during the course of our audit that require coordination
between DoD and FEMA. The issues include the use of DoD equipment, the use of other
entities, reimbursement and funding considerations, the issuance of mission assignments
through multiple channels, and the perception of the primary DoD mission. If DoD and
FEMA personnel address these issues, their agencies can provide more efficient disaster
response.

Use of DoD Equipment Rather Than FEMA Equipment
The FEMA requirement of determining the availability of equipment at logistics centers
can potentially delay the DoD response. According to FEMA, responders should use
equipment and supplies located at the FEMA logistics centers prior to purchasing or
using other equipment in response to a disaster. DoD already has equipment its units can
use during disaster response. DoD officials also expressed concerns over compatibility
of FEMA and DoD equipment. Having an agreement in place could improve the
efficiency of a disaster response because DoD units already have the equipment in their
possession as well as the training on how to use that equipment. As recommended to
DoD, FEMA and DoD should coordinate an agreement regarding the use of DoD
equipment while responding to a mission assignment. FEMA should also consider
developing a single Federal policy that establishes procedures for using existing
equipment during mission assignments and obtaining reimbursement.

Requesting Disaster Response From Entities Other
Than the DoD Services
FEMA does not always make full use of other disaster responders before requesting
assistance from DoD Services. The practice may result in a less efficient disaster
response. As discussed earlier, FEMA could improve use of the National Guard, Coast
Guard, and Civil Air Patrol before requesting support from DoD. The use of other
entities, including but not limited to the entities listed above, other Departments, and
contractors, could lead to improved response time because FEMA would avoid the
approval process required within DoD. The use of these other entities may also allow
DoD forces to perform other DSCA and warfighting operations. Additionally, the
generally lower costs associated with the other entities would lead to more economical
disaster response. FEMA should consider using other entities prior to requesting support
from DoD.

Reimbursement of Costs Incurred to Pre-Position
Resources
FEMA is not required to reimburse DoD for work performed by pre-positioned forces
unless an agreement is in place. The Economy Act authorizes Federal agencies to
provide support to other Federal agencies on a reimbursable basis if other authority does
not exist. DoD Instruction 4000.19 states that recurring interagency support that requires
reimbursement should be documented on a DD Form 1144 or in a similar format, yet no
agreement with FEMA is in place. As a result, DoD may not always receive


                                            30
reimbursement for eligible costs incurred by pre-positioned resources, including forces
and assets, in the future. DoD and FEMA need to consider the increasing reliance on
pre-positioning resources relating to the issuance of mission assignments and how the
actions are funded. FEMA representatives stressed that agencies will receive
reimbursement only for work performed within the performance period on the mission
assignment. DoD and FEMA should reach an agreement to avoid any reimbursement
issues with pre-positioned resources in the future. As recommended to DoD and stated in
DoD Instruction 4000.19, FEMA and DoD should coordinate an agreement that will
allow DoD to pre-position resources and seek reimbursement for eligible costs incurred
by pre-positioned resources, specifically using the Economy Act.

Funding for the Pre-Positioning of National Guard
Forces
In certain instances, FEMA should use disaster relief appropriations to reimburse DoD
for pre-positioning National Guard forces. The pre-positioning of National Guard forces
serves a critical role in disaster response because they are one of the main resources
States maintain for disaster response. When States hesitate to use funds to activate
National Guard forces and pre-position them, DoD can fund that cost. However, DoD
does not receive reimbursement for pre-positioning the National Guard. During
Hurricane Katrina, DoD recognized the importance of pre-positioning assets. Instead of
waiting for a reimbursable mission assignment to come from FEMA, DoD funded the
pre-positioning of National Guard forces when the States or FEMA should have funded
that cost. Because the National Guard is generally considered a State asset, FEMA
should consider how funding for the pre-positioning of the National Guard could occur.
Specifically, FEMA should address when FEMA or DoD funds the cost of pre-
positioning the National Guard using DoD Instruction 4000.19 and the Economy Act.

FEMA Mission Assignments From Multiple Channels
During Hurricane Katrina, FEMA personnel issued mission assignments from the region
and from national headquarters that entered DoD at multiple levels (the DCO, JCS, and
USNORTHCOM). DoD personnel experienced unnecessary confusion during Hurricane
Katrina because of the multiple channels through which the mission assignments entered
DoD. The USNORTHCOM Civil Support Concept of Employment, August 20, 2004,
states, “To ensure a rapid, coordinated, and consistent DoD disaster response, the DCO is
the single point of contact in the field for coordinating and validating the use of DoD
resources.” The 2004 National Response Plan also identifies this role of the DCO. The
development of DDASS will address this issue to some extent because DDASS provides
oversight of the status of all mission assignments. However, FEMA should consider how
personnel submit mission assignments to DoD, specifically after deployment of the DCO
and DCE, and implement guidelines to adhere to the 2004 National Response Plan and
the DoD requirement of the DCO serving as the point of contact for processing requests
for assistance.




                                           31
Perception of the Primary DoD Mission and Role in
Disaster Response
Some FEMA personnel misunderstand the DoD mission. Through interaction with
FEMA representatives in courses we participated in, we determined that some FEMA
personnel believe the primary DoD mission involves DSCA. DoD’s primary mission is
to provide the military forces needed to deter war and to protect the security of the United
States. DoD performs DSCA operations as a secondary mission. FEMA should
determine whether personnel who interact with DoD for disaster operations have
knowledge of the DoD mission. We believe it would be beneficial for FEMA personnel
who frequently interact with DoD to consider attending the DSCA Phase II course
offered by Army North.

Despite the provisions of the 2004 National Response Plan, FEMA and other Federal
agencies rely heavily on DoD for DSCA support. According to the Department of
Homeland Security Inspector General, FEMA issued more than $7 billion in Hurricane
Katrina mission assignments to all agencies. Of that $7 billion, DoD and the U.S. Army
Corps of Engineers, serving as the primary agency for emergency support function 3
(Public Works and Engineering), received more than $6 billion. DoD provides support
on multiple levels and as a supporting agency to all 15 emergency support functions, yet
combined with the U.S. Army Corps of Engineers, it received more than 80 percent of the
total dollar value in Hurricane Katrina mission assignments.

Conclusion
We identified these issues outside of DoD control during our audit. Because the issues
exist between DoD and FEMA, we made appropriate recommendations to DoD, but we
will also address the issues in a memorandum to the Department of Homeland Security
Inspector General. We believe that an enhanced and more efficient disaster response will
occur if FEMA and DoD properly address these issues.




                                            32
Appendix A. Scope and Methodology
We conducted this performance audit from January 2007 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed prior audits; the Stafford Act; the 2004 National Response Plan; the
Economy Act; title 44 of the Code of Federal Regulations; the DoD Financial
Management Regulation; 121 mission assignments and 189 mission assignment
amendments issued to DoD during Hurricane Katrina totaling more than $2 billion;
execution and deployment orders from JCS, USNORTHCOM, and U.S. Joint Forces
Command; and other subsequent DoD actions taken on these mission assignments. We
also reviewed lessons learned from Hurricane Katrina, 2006 and 2007 Severe Weather
Standing DSCA execution orders, and DDASS implementation manuals. In addition, we
evaluated the adequacy of directives, policies, manuals, instructions, and plans issued by
Federal agencies, DoD, the Joint Staff, and USNORTHCOM related to DSCA operations
and the achievements made since Hurricane Katrina. Specific criteria that we reviewed
include DoD Directives 3025.1, 3025.12, 3025.15, and 3025.16; DoD Manual 3025.1;
Joint Publication 1-06; and Joint Staff Instruction 3630.01. We attended training courses
hosted by FEMA and Army North.

We interviewed personnel within the Office of the Secretary of Defense. Specifically, we
met with personnel from the following Office of the Secretary of Defense Components:

               •   ASD(HD&ASA)
               •   (Comptroller)/Chief Financial Officer
               •   General Counsel
               •   Acquisition, Technology, and Logistics
               •   Personnel and Readiness

We also interviewed DoD personnel from the manpower/personnel, operations, logistics,
plans and policy, training and exercises, and finance directorates in part or in full at the
following locations:

               •   JCS
               •   USNORTHCOM
               •   U.S. Joint Forces Command
               •   Army Forces Command
               •   Fleet Forces Command/Navy North
               •   Air Combat Command
               •   Army North
               •   Air Force North

Additionally, we contacted personnel from the U.S. Army Corps of Engineers, Defense
Finance and Accounting Service, and the Financial Manager-Katrina.


                                             33
Our contacts with personnel in the organizations included discussions on the observances
from Hurricane Katrina, corrective actions taken since then, and recommendations in the
previously issued audit reports. We limited our review to the DoD handling of the
mission assignments from the initial contact with FEMA to the performance and financial
management of the assigned missions. After announcing the audit, we removed the U.S.
Army Corps of Engineers and the overall reconciliation process from the audit scope.
However, we did review limited aspects of the reconciliation process when addressing
concerns identified by DoD personnel. We did not review the interaction between DoD
personnel and other disaster relief agencies during the Gulf Coast recovery efforts.

Review of Internal Controls
7B




As defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006, internal control weaknesses existed in the way
ASD(HD&ASA), JCS, and USNORTHCOM carried out the mission assignment process.
JCS and ASD(HD&ASA) did not have adequate procedures in place to coordinate with
other disaster relief components before accepting and staffing mission assignments.
Also, specific guidance was not in place to require USNORTHCOM to always allocate
costs among responders when it delegated the mission assignments. USNORTHCOM
did not allocate a portion of the total dollar amount of the mission assignment to each
responder. Instead, each responder could have requested reimbursement for the entire
mission assignment amount. DoD risked providing unnecessary resources for mission
assignments (see finding A) and spending more than FEMA authorized for the mission
assignments (see finding B). Implementing Recommendations A.1.c., A.2., A.3.a., A.4.,
B.1., B.2., B.3.a., B.3.b., B.3.c., and B.4.a. will improve procedures for accepting mission
assignments and financial management of reimbursable funds.

Use of Computer-Processed Data
16B




We examined deployment orders, execution orders, and the implementation and
development of the DDASS system. We did not test the accuracy and completeness of
the order-writing computer systems because we reviewed hard copy documentation. We
examined the DDASS system as it pertains to the approval and tracking of the mission
assignment process. Although we partially reviewed the capabilities of the system, we
did not test reliability or accuracy of the automated tracking system because the system is
still in development.




                                            34
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), the Army Audit Agency, the Naval Audit Service,
and the Air Force Audit Agency have issued a total of 10 reports related to this audit.
This list of 10 audit reports does not include each audit related to Hurricane Katrina;
rather it consists of the audits most directly associated with the objectives of this audit.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
                                                                H                   H




Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
                                                 H                                      H




GAO
24B




GAO Report No. GAO-06-643, “Hurricane Katrina: Better Plans and Exercises Needed
to Guide the Military’s Response to Catastrophic Natural Disasters,” May 2006

DoD IG
25B




DoD IG Report No. D-2007-121, “Emergency Supplemental Appropriations for DoD
Needs Arising from Hurricane Katrina at Selected DoD Components,”
September 12, 2007

DoD IG Report No. D-2007-081, “Financial Management of Hurricane Katrina Relief
Efforts at the U.S. Army Corps of Engineers,” April 6, 2007

DoD IG Report No. D-2007-002, “Use of DoD Resources Supporting the Hurricane
Katrina Disaster,” October 16, 2006

DoD IG Report No. D-2006-118, “Financial Management of Hurricane Katrina Relief
Efforts at Selected DoD Components,” September 27, 2006

Army
26B




Army Audit Agency Report No. A-2007-0135-FFD, “Army Fund Accountability for
Hurricane Katrina Relief Efforts,” June 12, 2007

Navy
27B




Naval Audit Service Report No. N2007-0039, “Controls and Accountability Over
Medical Supplies and Equipment-Hurricane Relief Efforts,” June 1, 2007

Naval Audit Service Report No. N2007-0009, “Department of the Navy’s Use of
Hurricane Katrina Relief Funds,” January 3, 2007

Air Force
28B




Air Force Audit Agency Report No. F2007-0008-FD1000, “Hurricane Katrina
Supplemental Funds Management,” April 23, 2007




                                            35
Air Force Audit Agency Report No. F2007-0003-FB1000, “Hurricane Katrina Federal
Emergency Management Agency Reimbursements,” November 20, 2006




                                       36
Appendix C. Emergency Support Functions
The 2004 National Response Plan establishes 15 emergency support functions covering
various categories of disaster. As shown in the chart, a primary agency has responsibility
for each emergency support function and other Federal and civil components provide
support, as required. DoD, specifically the U.S. Army Corps of Engineers, is the primary
agency for emergency support function 3. Mission assignments issued to the U.S. Army
Corps of Engineers under emergency support function 3 do not require normal DoD
approval.

                   Emergency Support Functions (ESF) and Their Primary Agencies *       F   F




    ESF           ESF Title                                 ESF Primary Agency
     1          Transportation                           Department of Transportation
                                          Department of Homeland Security/Information Analysis and
     2         Communications
                                          Infrastructure Protection/National Communications system
                                           Department of Defense/U.S. Army Corps of Engineers;
               Public Works and
     3                                  Department of Homeland Security/Emergency Preparedness and
                 Engineering
                                             Response/Federal Emergency Management Agency
     4           Fire Fighting                     Department of Agriculture/Forest Service
                                        Department of Homeland Security/Emergency Preparedness and
     5     Emergency Management
                                             Response/Federal Emergency Management Agency
                                        Department of Homeland Security/Emergency Preparedness and
           Mass Care, Housing and
     6                                     Response/Federal Emergency Management Agency; The
              Human Services
                                                            American Red Cross
     7         Resource Support                         General Services Administration
          Public Health and Medical
     8                                            Department of Health and Human Services
                  Services
                                        Department of Homeland Security/Emergency Preparedness and
     9     Urban Search and Rescue
                                             Response/Federal Emergency Management Agency
          Oil and Hazardous Materials     Environmental Protection Agency; Department of Homeland
    10
                   Response                              Security/U.S. Coast Guard
            Agriculture and Natural
    11                                       Department of Agriculture; Department of the Interior
                  Resources
    12              Energy                                  Department of Energy
    13     Public Safety and Security      Department of Homeland Security; Department of Justice
                                             Department of Agriculture; Department of Homeland
                                           Security/Emergency Preparedness and Response/ Federal
           Long-Term Community
    14                                   Emergency Management Agency; Department of Housing and
           Recovery and Mitigation
                                        Urban Development; Department of the Treasury; Small Business
                                                               Administration
                                        Department of Homeland Security/Emergency Preparedness and
    15          External Affairs
                                              Response/Federal Emergency Management Agency



*
 The 2004 National Response Plan also identifies supporting agencies for each emergency support
function. DoD serves as a supporting agency on all 15 emergency support functions.


                                                   37
38
Appendix D. Disaster Response Framework

                                Incident




  First level             Local resources are
  responders                  exhausted



 Second level         State resources are exhausted
  responders         (including The National Guard )



                  Governor requests assistance and a
                   Presidential Declaration is issued



 Third level
                                 FEMA
 responders


                      Emergency support function /
 Fourth level
                   primary Federal agency resources
 responders
                             are exhausted



                    FEMA requests DoD assistance
  Fifth level   First mission assignment is generally to
  responders             activate the DCO / DCE


                          39
40
Appendix E. Defense Support of Civil
Authorities Approval and Performance
Process
                                                                        Incident Requiring
                                                                         DoD Assistance


        Now Can Pre-                                           FEMA Request for DCO/DCE
       position and Issue
         RFFs prior to
      Mission Assignment
          Issuance.1                       FEMA Issues Mission Assignments2 Through the FCO/DCO

                                                         ing on
                                                  s Warn         ent.
                                        O P rovide         ssignm
                                   D C              sio A
                                                       n
                                         F E MA Mis
                                       g                                                           DoD Executive
                                Pendin
                                                                                                     Secretary
       USNORTHCOM                                                        ASD(HD&ASA)                                                 JCS


     Begins Parallel Planning
    With Service Components
                                                           3             Prepares Order                          3
    (AFNORTH, ARNORTH,                    Simultaneously                                            Simultaneously           Staffs Order
         NAVNORTH,                                                        for Approval
       MARFORNORTH)


                                                                                                   Secretary of
          USNORTHCOM                                                                             Defense Approval
          Issues RFFs for
              Forces
                                                                                               JCS Issues EXORD or
                                                                                               EXORD-Modification
                                               Forces are Assigned from
                                                    the Supporting
       USNORTHCOM                                                                         USJFCOM, as the Force Provider,
                                                Combatant Commander
          Receives                                                                         Issues DEPORDs Through the
                                                  (USJFCOM) to the
        Command and                                                                         Service Components (ACC,
                                                 Supported Combatant
       Control of Forces                                                                         FORSCOM, FFC)
                                                     Commander
                                                  (USNORTHCOM)
                                                                                                       Legend
     Units Perform Tasks                                                            ACC               Air Combat Command
    Under USNORTHCOM                                                                AFNORTH           U.S. Air Force North
    and Respective Service                                                          ARNORTH           U.S. Army North
                                                                                    DEPORD            Deployment Order
         Components
                                                                                    EXORD             Execute Order
                                                                                    FCO               Federal Coordinating Officer
                                                                                    FFC               Fleet Forces Command
                                                                                    FORSCOM           U.S. Army Forces Command
                                                                                    MARFORNORTH       U.S. Marine Forces North
                                                                                    NAVNORTH          U.S. Navy North
                                                                                    RFF               Request for Forces
                                                                                    USJFCOM           U.S. Joint Forces Command
1
  USNORTHCOM can issue requests for limited forces prior to receipt of a request for assistance. These
   assets are identified for use in large-scale incidents in which USNORTHCOM anticipates the capabilities
   of local and state authorities will be exceeded.
2
  DoD refers to mission assignments as “requests for assistance” until Secretary of Defense approval.
3
  DDASS will now provide more visibility during the steps of the mission assignment process that occur
simultaneously.



                                                                             41
42
Joint Chiefs of Staff Comments




                   Click to add JPEG file




                                  43
Click to add JPEG file




               44
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments
                                                             Final Report
                                                              Reference




                                                           Note: The project
                                                           number identified
                                                           in the subject line is
                                                           incorrect, but the
                                                           Draft Report title
                                                           and subsequent
                                                           content pertains to
                                                           this project.

                    Click to add JPEG file




                                   45
                         Note: Report No.
                         D2006-118 is dated
                         September 27, 2006
                         rather than
                         September 27,
                         2008.




Click to add JPEG file




               46
U.S. Northern Command Comments




                 Click to add JPEG file




                                47
                           Final Report
                            Reference




                         Recommendations
                         A.2.a. and A.2.b.
                         have been
                         renumbered
                         A.3.a. and A.3.b.




Click to add JPEG file




               48
Click to add JPEG file




               49
50
Assistant Secretary of Defense for Homeland Defense and
Americas' Security Affairs Comments




                   Click to add JPEG file




                                  51
                           Final Report
                            Reference




                         Recommendation
                         A.3.a. has been
                         renumbered A.4.

Click to add JPEG file




               52
Click to add JPEG file




               53
Click to add JPEG file




               54
Additional Assistant Secretary of Defense for Homeland
Defense and Americas' Security Affairs Comments
                                                           Final Report
                                                            Reference




                                                         Recommendation
                                                         A.3.b. (incorrectly
                                                         identified as A.3.d.
                                                         in comments) has
                                                         been redirected to
                                                         the Under Secretary
                                                         of Defense
                   Click to add JPEG file                (Comptroller)/
                                                         Chief Financial
                                                         Officer and
                                                         renumbered A.2.

                                                         Recommendation
                                                         A.3.c. has been
                                                         redirected to the
                                                         Commander, U.S.
                                                         Northern
                                                         Command.
                                                         However, the
                                                         number remains
                                                         A.3.c. as a result of
                                                         other renumbering.




                                  55
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Dianna J. Pearson
Jeffrey L. Steinbauer
Joaquin Garcia
William F. Kissler
Jonathan W. Rogers
Richard A. Miller
Michael J. Gwiazdowski
Beth R. Hornyak
Jillisa H. Milner
Allison Tarmann
